No. _ _~

IN THE
SUPREME COURT OF THE UNITED STATES
Patrick W. Schroeder

Petitioner
V.

State of Nebraska

Respondent

PROOF OF SERVICE
I, Sarah P. Newell, do swear or declare that on this date, July 29, 2020, as
required by Supreme Court Rule 29, I have served the enclosed MOTION FOR
LEAVE TO PROCEED IN FORMA PAUPERIS and PETITION FOR A WRIT OF

CERTIORARI on each party to the above proceeding or that party's counsel, and on
every other person required to be served, by depositing an envelope containing the
above documents in the United States mail properly addressed to each of them and
with first-class postage prepaid, or by delivery to a third-party commercial carrier
for delivery within 3 calendar days.
The names and addresses of those served are as follows:
Douglas J. Peterson
James Smith
Nebraska Attorney General's Office
P.O. Box 98920
Lincoln, NE 68509-8920
I declare under penalty of perjury that the foregoing is true and correct.

Executed on July 29, 2020.

Counsel of Record
Nebraska Commission on Public Advocacy
140 N. 8 th St., Ste. 270
Lincoln, NE 68508
snewell@ncpa.ne. gov
(402) 471-7774

